No. 21-_ __

IN THE
SUPREME COURT OF THE UNITED STATES
JANICE DICKINSON,
Petitioner,
v.

RYAN SEACREST PRODUCTIONS, INC., ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I, Regina Yeh, counsel for Janice Dickinson and a member of the Bar of the
State of California, hereby certify that on this 19th of May, 2021, I caused to be served
the following documents:
PETITION FOR WRIT OF CERTIORARI (THREE (3) COPIES)
CERTIFICATE OF COMPLIANCE
LETTER TO THE U.S. SUPREME COURT CLERK'S OFFICE
by placing a true and correct copy of the documents in a Federal Express box
addressed to the counsel for Respondents as listed below, affixing a post-paid Federal
Express air bill, and causing the envelope to be delivered to a Federal Express agent
for delivery:
WOOK HWANG (SBN 4527347)
LOEB & LOEB LLP
345 Park Avenue
New York, NY 10154
Telephone: 212.407.4035
Fax: 212.937.3847
whwang@loeb.com

Counsel for Respondents Ryan Seacrest
Enterprises Inc.; Truly Original, LLC;
Tess Cannon; NBCUniversal Media,
LLC; Erik Rosette aka Erik Rosete aka
Mister Triple X; Ryan Seacrest
Productions,
LLC;
and
Suns
Productions, LLC

EDWARD K. LEE (SBN 294954)
LOEB & LOEB LLP
10100 Santa Monica Blvd. , Suite 2200
Los An geles, CA 90067
Telephone : 310.282.2148
Fax: 310.282.2200
elee@loeb.com

Addition ally, electronic ver sions of t he for egoing documents wer e t r an smit ted
to counsel for Respondents at the ema il addresses listed above.
I furt her certify all p arties required to be ser ved h ave bee n served.
I declar e under penalty of perjury t h at th e for egoing is true and correct.
Executed on May 19, 2021.

Regin a Yeh
California Stat
401 Wilshire Boulevard
12 t h Floor
Santa Monica, CA 90401
(3 10) 496-4270 Telephone
(888) 744-0317 Facsimile
Counsel for Petitioner J a nice Dickinson

